IN THE
SUPREME COURT OF THE UNITED STATES
__________
No. ___
__________
JASON LAUT,
v.

Applicant,

UNITED STATES OF AMERICA,
Respondent.
_________________________
APPLICATION TO THE HON. BRETT M.
KAVANAUGH FOR AN EXTENSION OF TIME
WITHIN WHICH TO FILE A PETITION FOR A
WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SEVENTH
CIRCUIT
_________________________
Pursuant to Supreme Court Rule 13(5), Jason Laut hereby moves for an
extension of time of 30 days, to and including May 8, 2020, for the filing of a petition
for a writ of certiorari. Unless an extension is granted, the deadline for filing the
petition for certiorari will be April 8, 2020.
In support of this request, Applicant states as follows:
1.

The United States Court of Appeals for the Seventh Circuit rendered its

decision on December 6, 2019 (Exhibit 1), and denied a timely petition for rehearing
on January 9, 2020 (Exhibit 2). This Court has jurisdiction under 28 U.S.C. §1254(1).

2.

This case concerns the extent to which the requirements of Federal Rule

of Criminal Procedure 52(b) preclude defendants from seeking appellate relief from a
constructive amendment, where the defendants’ counsel failed to object at trial. Here,
although the government effectively conceded that it had constructively amended
Laut’s operative indictment both in its appellate brief and at oral argument, the
Seventh Circuit determined that Laut was precluded from relief under the plain error
standard. See United States v. Laut, 790 Fed. Appx. 45 (7th Cir. 2019). Specifically,
the Seventh Circuit found that since no circuit precedent existed concerning whether
providing the indictment and verdict form to the jury in the deliberation room might
mitigate the harm of a constructive amendment, any error was not plain. Id. at 4849. Further, the Seventh Circuit determined that the evidence was sufficiently strong
to convict Laut even absent the constructive amendment, and that Laut therefore
could not demonstrate that he was prejudiced. Id. at 49.
3.

The Seventh Circuit’s application of the plain error standard to a

constructive amendment conflicts with decisions from several other circuits—as the
Seventh Circuit itself acknowledged earlier last year. See United States v. Pierson,
925 F.3d 913, 924-25 (7th Cir. 2019) (citing United States v. Thomas, 274 F.3d 655,
670 (2d Cir. 2001) (noting that “a constructive amendment is a per se prejudicial
violation of the Grand Jury Clause of the Constitution”); United States v. Syme, 276
F.3d 131, 154 (3d Cir. 2002) (applying a rebuttable presumption that constructive
amendments prejudice a defendant); United States v. Floresca, 38 F.3d 706, 713 (4th
Cir. 1994) (explaining how “a constructive amendment always ‘affects substantial

2

rights’”); United States v. Gavin, 583 F.3d 542, 547 (8th Cir. 2009) (employing an
approach similar to the Seventh Circuit); United States v. Miller, 891 F.3d 1220, 1237
(10th Cir. 2018) (requiring merely “[a] reasonable probability [of prejudice] sufficient
to undermine confidence in the outcome”—not proof that but for the error the result
would have been different); United States v. Madden, 733 F.3d 1314, 1323 (11th Cir.
2013) (requiring reversal unless the court can determine “with certainty” that the
constructive amendment did not impact the jury’s decision to convict)); see also
Floresca, 38 F.3d at 712 (concluding that error is “plain” where it is plain that the
grand jury did not return an indictment covering the additional areas presented to
the petit jury).
4.

Between now and the current due date of the petition, Applicant’s

counsel, Erin E. Murphy, has substantial briefing and oral argument obligations,
including a petition for certiorari in Seng v. United States, (U.S.) due March 16; a
reply brief in Thompson v. Hebdon, No. 17-35019 (9th Cir.) due March 31; a petition
for certiorari in Kansas City Royals Baseball Corp. v. Senne, (U.S.) due April 2; and
an oral argument in Duncan v. Becerra, No. 19-55376 (9th Cir.) on April 2.
5.

Applicant’s counsel thus requests a modest extension to prepare a

petition that fully addresses the important issues raised by the decision below and
frames those issues in a manner that will be most helpful to the Court.
WHEREFORE, for the foregoing reasons, Applicant requests that an
extension of time to and including May 8, 2020, be granted within which Applicant
may file a petition for a writ of certiorari.

3

Respectfully submitted,

ERIN E. MURPHY
Counsel of Record
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
erin.murphy@kirkland.com
JOHN CHRISTOPHER KOREVEC
Admission Pending
555 South Flower Street, Suite 3700
Los Angeles, CA 90071
(213) 680-8400
john.korevec@kirkland.com
Counsel for Applicant

March 13, 2020

4

